                                                                             Report No. DODIG-2014-036




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JA N UA RY 3 1 , 2 0 1 4




                    Independent Auditor’s Report on the
                    FY 2013 DoD Performance Summary
                    Report of the Funds Obligated for
                    National Drug Control Program
                    Activities




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                  January 31, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
			             CHIEF FINANCIAL OFFICER, DOD
		             DEPUTY ASSISTANT SECRETARY OF DEFENSE
			             (COUNTERNARCOTICS AND GLOBAL THREATS)
		             ASSISTANT SECRETARY OF THE AIR FORCE
			             (FINANCIAL MANAGEMENT AND COMPTROLLER)
		             NAVAL INSPECTOR GENERAL
		             AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Independent Auditor’s Report on the FY 2013 DoD Performance Summary Report
	        of the Funds Obligated for National Drug Control Program Activities
	        (Report No. DODIG-2014-036)

The “Office of National Drug Control Policy [ONDCP] Circular: Accounting of Drug Control
Funding and Performance Summary,” January 18, 2013, (the Circular), requires DoD to provide a
performance summary report (Report) to the Director, Office of National Drug Control Policy,
by February 1 of each year. The Circular requires that the DoD Office of the Inspector General
review the report and express a conclusion on its reliability.

The Circular outlines the four required components of the information the Deputy Assistant
Secretary of Defense, Counternarcotic and Global Threats (DASD [CN & GT]) must include in their
Report. The components are:

       •	 performance measures,

       •	 prior-year performance targets and results,

       •	 current-year performance targets, and

       •	 quality of performance data.

The Circular also requires DASD (CN & GT) to make four assertions about the information
presented in the Report.

The DASD (CN & GT) was responsible for compiling and transmitting the Report. We reviewed
the Report in accordance with the attestation standards established by the American Institute
of Certified Public Accountants and in compliance with generally accepted government
auditing standards. Those standards require that we plan and perform the attestation to
obtain enough evidence to provide a reasonable basis for our findings and conclusions based
on our attestation objective. We believe the evidence provides a reasonable basis for our
findings and conclusions and is in line with our attestation objective. We performed a




                                                                 DODIG-2014-036 (Project No. D2014-D000FT-0063) │ 1
           review-level attestation, which is substantially less in scope than an examination done to
           express an opinion on the subject matter. Accordingly, we do not express an opinion.

           DASD (CN & GT) provided the Report in a letter dated December 13, 2013. We reviewed it
           to determine its compliance with the Circular. The Report described how DoD executed a
           $1.31 billion counternarcotics program in accordance with the DoD Counternarcotics Global
           Threat Strategy. DoD compiled its own data, along with those of external sources from the DoD
           counternarcotics website.

           DASD (CN & GT) reported on the DoD drug demand reduction activities and the counternarcotics
           and global threats activities for FY 2013. DASD (CN & GT) also reported information pertaining
           to three strategic goals and performance measures related to those strategic goals. Each strategic
           goal had at least one associated performance measure. See attachment for more information
           about the strategic goals and performance measures.

           Based on our review, the Report did not conform in all material respects to the Circular. Specifically,
           the Report materially deviated from the requirements of the Circular because DASD (CN & GT)
           did not:

                     •	 adequately describe and explain DoD performance measures for Strategic Goal 2;

                     •	 adequately disclose the reasons for the lack of 4 years of data for DoD performance
                        measures for Strategic Goals 1, 2, and 3;

                     •	 provide FY 2013 targets for DoD performance measures for Strategic Goal 3;

                     •	 adequately explain why DoD did not meet its FY 2013 performance targets or DoD’s
                        plans to meet the target in future years for Strategic Goals 1 and 2; or

                     •	 provide sufficient support for the data for the Drug Demand Reduction Program, the
                        Counternarcotics and Global Threats section, Strategic Goal 2, and Strategic Goal 3.
                        DoD only provided sufficient support for Strategic Goal 1 and training numbers for
                        Africa Command, Pacific Command, and European Command.

           Other than the deficiencies indicated in this report, we are not aware of any material modifications
           that should be included in the FY 2013 Performance Summary Report.




           	                                              Amy J. Frontz, CPA
           	                                              Principal Assistant Inspector General
           	                                               for Auditing
           Attachment:
           As stated




2 │ DODIG-2014-036 (Project No. D2014-D000FT-0063)
Attachment




                                         OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                                              2500 DEFENSE PENTAGON
                                                             WASHINGTON, D.C. 20301-2500




              SPECIAL OPERATIONS/
             LOW-INTENSITY CONFLICT




                     Mr. Jon Rice
                     Associate Director
                                                                                                    DEC 1 3 2013
                     Performance and Budget (Room       535)
                     Office ofNational Drug Control Policy
                     750 1 ih Street, NW
                     Washington, DC    20503

                     Dear Mr. Rice:


                               On behalf of the Department of Defense (DoD), I am pleased to submit the attached DoD
                     FY2013 Counternarcotics Performance Summary Report. As required by the Office ofNational
                     Drug Control Policy Circular: Drug Control Accounting dated January 18, 2013, I assert that:


                         •     Our performance reporting system is appropriate and properly applied to generate
                               performance data.


                         •     Current performance results are reasonably explained and include plans for meeting
                               future performance targets.


                         •     The methodology used to establish performance targets is reasonable given past
                               performance and available resources


                         •     Acceptable performance measures exist for all of our significant drug control activities.


                               I anticipate that your office will provide valuable feedback regarding our performance
                     accounting, and your inputs will help us improve the effectiveness of our contributions to the
                     President'sNational Drug Control Strategy. My point of contact for this action is Mr. Trace
                     Crider,   703-614-8805, (tracey.e.crider.ctr@mail.mil).




                                                                                    Hollis
                                                                                    ssistant Secretary of Defense
                                                                          Counternarcotics and Global Threats


                     Attachment:
                     As stated




4 │ DODIG-2014-036
                                                                                          Attachment




           FY	2013	Counternarcotics	
         Performance	Summary	Report	
                      U.S.	Department	of	Defense	



                                   UNCLASSIFIED	
                                December	06,	2013	
                                                                      	




DISTRIBUTION	STATEMENT	A.		Approved	for	public	release;	distribution	is	unlimited.	




                                                                                      DODIG-2014-036 │ 5
Attachment




                       THIS	PAGE	INTENTIONALLY	LEFT	BLANK	




             Page ii     FY 2013 DoD Counternarcotics Performance Summary Report




6 │ DODIG-2014-036
                                                                                                                                               Attachment




TABLE	OF	CONTENTS	

Executive Summary .........................................................................................................................5
Quality of Performance Data ...........................................................................................................6
Performance Results and Discussion ...............................................................................................8




                                    FY 2013 DoD Counternarcotics Performance Summary Report                                         Page iii

                                                                                                                                       DODIG-2014-036 │ 7
Attachment




                        THIS	PAGE	INTENTIONALLY	LEFT	BLANK




              Page iv     FY 2013 DoD Counternarcotics Performance Summary Report




8 │ DODIG-2014-036
                                                                                                        Attachment




EXECUTIVE	SUMMARY	

        In accordance with the Department of Defense (DoD) Counternarcotics and Global
Threats Strategy, dated April 27, 2011, DoD commits resources in support of an integrated
military and civilian counternarcotics program designed to combat drug trafficking and related
forms of transnational organized crime. DoD’s counternarcotics program, through its above
referenced strategy, supports the National Drug Control Strategy and the National Strategy to
Combat Transnational Organized Crime.

        In FY 2013, DoD executed its counternarcotics program in accordance with the following
strategic goals:

          Strategic Goal 1. To disrupt and, to the degree possible disable, not only the nexus of
           actors and activities but also the individual activities of trafficking, insurgency,
           corruption, threat finance, terrorism, and distribution of precursor chemicals in
           Afghanistan/Pakistan such that material support for the insurgency and terrorists is
           significantly reduced, the Afghan National Police and other law enforcement agencies
           are strengthened, and the governments of Afghanistan and Pakistan are reinforced.

          Strategic Goal 2. Illicit drug and drug precursor trafficking and related transnational
           organized criminal threats to U.S. national security interests in the Western
           Hemisphere – particularly in Mexico, Central America, Colombia, and Peru – are
           reduced sharply in a manner sustained by partner nations.

          Strategic Goal 3. The size, scope, and influence of targeted Transnational Criminal
           Organizations (TCOs) and trafficking networks are mitigated such that these groups
           pose only limited, isolated threats to U.S. national security and international security.
           The United States and partner nations have developed layered and coordinated
           approaches that regularly disrupt the operations of these organizations and networks,
           limit their access to funding, reduce their assets, and raise their costs of doing
           business.

        Through these strategic goals, DoD continued to provide significant support to U.S. and
partner nation drug law enforcement agencies in the areas of training, communications support,
infrastructure, intelligence, transportation, equipment, command and control, and detection and
monitoring. Additionally, the Department remains committed to keeping drug use low among its
active duty and civilian personnel. This summary includes performance measures, targets, and
achievements for the latest year in which data were available.




                          FY 2013 DoD Counternarcotics Performance Summary Report              Page 5




                                                                                                 DODIG-2014-036 │ 9
Attachment




            QUALITY	OF	PERFORMANCE	DATA	

            ALIGNMENT AND ARCHITECTURE

                    DoD’s counternarcotics strategic goals contain a series of comprehensive and
            complementary objectives that provide the insight and direction necessary for all DoD
            counternarcotics components to prioritize programs and activities they implement. Using
            counternarcotics Central Transfer Account funding, these programs and activities support other
            government departments and agencies under a whole-of-government framework. DoD uses
            performance data to gauge effectiveness, observe progress, and to measure actual results for
            comparison to expected results. Data used for monitoring varies among Components and
            reporting reflects the unique result being measured. Since DoD counternarcotics activities
            primarily focus on detection and monitoring, information sharing, and partner nation capacity
            building, data that best describe DoD’s contribution to its strategic enabling role are suitable.

            FRAMEWORK AND LIFECYCLE

                   DoD uses performance results frameworks to explicitly link and index strategic goals to
            underlying intermediate objectives and activities. Linking discrete inputs to outputs and
            outcomes provides a logical and meaningful structure for aggregating performance data to
            provide information that is both useful and informative to strategic decision making and
            operational tactics.

                    The evolution of performance information over the lifecycle of a counternarcotics
            activity guides DoD’s selection of performance data. Early in the lifecycle, milestones are
            relevant for informed decision making. As mission requirements begin to be executed and
            sustained, outputs become more meaningful for decision-making and resource allocation. As the
            counternarcotics activity matures, outcome and impact indicators become the relevant focal point
            for assessing progress towards strategic goals.

            MANAGEABLE INTEREST

                    Through memorandums of agreement and memorandums of understanding, DoD
            provides assistance to the interagency and to our partner nations as required to help achieve the
            objectives of the Office of the National Drug Control Strategy. DoD believes that its assistance
            contributes significantly to those objectives and is willing to assume the risk that performance
            information may, in some cases, not be forthcoming from interagency or our international
            partners. In situations where DoD is unable to obtain performance information from sources
            outside of DoD control, DoD counternarcotics program managers may choose to rely upon
            output indicators as proxies for outcome and impact indicators.

                    As many programs, partnerships, and capabilities mature, DoD components are building
            rating systems and progress reports that aggregate many input and output indicators to gauge a
            milestone status, readiness capability, or operating capability. Both qualitative and quantitative
            data make up these rating systems.



            Page 6                    FY 2013 DoD Counternarcotics Performance Summary Report




10 │ DODIG-2014-036
                                                                                                      Attachment



DATA SOURCES AND COLLECTION METHODS

        DoD counternarcotics performance data are either primary data or secondary data.
Primary data are collected directly by DoD, and secondary data are collected by external sources
such as open source data, partner nation data, and data collected by other services or agencies.
DoD recognizes that performance data are only as reliable as the underlying data source.
Consequently, DoD considers the relevance, reliability, availability, and verifiability of the data
source in selecting performance data. DoD performs appropriate data validation and verification
and discloses any performance data limitations related to data sources, data completeness, or data
validity.

        During FY 2013, DoD continued to leverage technology systems to facilitate collection
of performance data for management decisions at the operational and strategic level. For
example, DoD collected FY 2013 performance data through its counternarcotics website, in
order to enable contemporaneous analysis of strategic goals, budgetary resources, program
activities, and performance metrics. These systems allow DoD to more efficiently push and pull
performance data as required for stakeholder reporting and various programmatic functions.

PERFORMANCE TARGETS

        Target setting is a DoD management process delegated to counternarcotics program
managers who are knowledgeable about specific counternarcotics activities and associated
performance information. Obtaining performance targets from those who are most closely
involved with the counternarcotics activity leads to more informed and realistic targets. Once
targets are set, they are not changed for a period of time but remain flexible as more information
is received and as circumstances change. When setting performance targets, DoD reviews trends
and history and considers variations in performance, peaks, troughs, and seasonal, economic, and
political factors. Other factors considered include new authorities, changes in existing
authorities, and new political leadership.




                          FY 2013 DoD Counternarcotics Performance Summary Report            Page 7




                                                                                               DODIG-2014-036 │ 11
Attachment




                 PERFORMANCE	RESULTS	AND	DISCUSSION	

                 DRUG DEMAND REDUCTION

                 Measure 1: Active duty military personnel testing positive for drug use. (T = FY13/14 targets)

                          FY	2008	 FY	2009	 FY	2010       FY 2011    FY 2012     FY	2013	T    FY	2013		 FY	2014	T
                           1.19%    0.99%    0.85%         0.94%      0.88%        < 2%         .7%       < 2%


                             2.00%
                             1.80%
                             1.60%
                             1.40%
                             1.20%
                             1.00%
                             0.80%
                             0.60%
                             0.40%
                             0.20%
                             0.00%
                                       FY 2008    FY 2009      FY 2010      FY 2011      FY 2012     FY 2013



                 Measure 2: DoD civilian personnel testing positive for drug use. (T = FY13/14 targets)

                          FY	2008	 FY	2009	 FY	2010       FY 2011    FY 2012     FY	2013	T    FY	2013	 FY	2014	T
                           0.28%    0.31%    .89%          .28%       0.33%        < 1%        0.37%     < 1% 
                  
                             2.00%
                             1.80%
                             1.60%
                             1.40%
                             1.20%
                             1.00%
                             0.80%
                             0.60%
                             0.40%
                             0.20%
                             0.00%
                                       FY 2008    FY 2009      FY 2010      FY 2011      FY 2012     FY 2013



                 Page 8                    FY 2013 DoD Counternarcotics Performance Summary Report




12 │ DODIG-2014-036
                                                                                                         Attachment




        The DoD Drug Demand Reduction Program (DDRP) was mandated in 1981 and was
given the mission to deter DoD personnel from abusing illicit drugs or misusing prescription
drugs. The Program components include compulsory random drug testing with punitive
consequences and anti-drug education and outreach programs. The effectiveness of this program
is measured by monitoring the prevalence of drug use from drug testing statistics published
annually with a 2% or less urine drug positive rate for military personnel, and a 1% urine drug
positive rate for DoD civilians in Testing Designated Positions. An additional source of
determining the effectiveness of the DDRP is the DoD Survey of Health Related Behaviors. The
DoD survey is conducted every three years as an additional measure of effectiveness because it
is independent from the drug testing program. The specific metric from the survey monitored is
self-reported use of illicit drugs and misuse of prescription drugs within the past 30 days.

        DoD is on track to keep the illicit drug positive rate below 2% showing a downward trend
for both active duty personnel and DoD civilian personnel. Defense policy is to ensure 100%
random urine drug testing for all active, reserve, and National Guard. Given the success of the
Defense civilian drug testing program, the DoD random testing rate for civilians in testing
designated positions will be 100% over a two year period, or 50% of the workforce per year.

COUNTERNARCOTICS AND GLOBAL THREATS
 
        In Afghanistan, the Afghanistan Threat Finance Cell (ATFC) supports military and
interagency operations by disrupting financial flows and material support for the insurgency. In
FY 2013, the ATFC supported Afghanistan’s recovery of Kabul Bank assets embezzled by
shareholders and identified transfers to financial institutions under U.S. jurisdiction. The ATFC
also investigated a kidnapping-for-ransom gang that supported the insurgency resulting in the
arrest of 15 kidnappers. ATFC began a training program for district and provincial Afghanistan
law enforcement personnel on how to disrupt illicit finance networks such as those operated by
unlicensed money service providers.

        In Africa, DoD builds the capacity of our partners, with a focus on Senegal, Ghana,
Liberia, Benin, Sierra Leone, and Cape Verde, to protect country borders from illicit trafficking.
In FY 2013, AFRICOM executed 106 training events instructing 905 partner nation students on
interdiction and apprehension, border control, and intelligence and information sharing.

        In the Pacific, DoD builds the capacity of our partners, with a focus on the Philippines,
Indonesia, Thailand, Vietnam, and Cambodia, to disrupt and degrade the nexus among
transnational criminal organizations, illicit drug trafficking, foreign terrorist organizations, and
militant movements. In FY 2013, DoD's engagement with partner nation law enforcement
resulted in 1,006 students trained in CN operational skill sets. This successfully trained student
cohort is reduced from prior years' graduation rate due to a reduction of resources.

         In Europe, DoD engages our European partners in collaborative interagency partnerships
at the state and local levels, with a focus on Turkey, Bulgaria, the Balkans, and other
Mediterranean countries, to secure borders, deny use of air, land, and coastal waters for illicit
drug trafficking and transnational organized crime, and control the flow of illicit drugs and ill-
gotten proceeds. In FY 2013, DoD provided counternarcotics training to 672 partner nation
personnel.


                          FY 2013 DoD Counternarcotics Performance Summary Report               Page 9




                                                                                                  DODIG-2014-036 │ 13
Attachment




                  In support of countering global threats, DoD counter threat finance (CTF) programs
          synchronize Combatant Command and federal law enforcement missions to target financial
          flows tied to drug trafficking and related forms of transnational organized crime. These CTF
          programs regularly support the U.S. Department of the Treasury’s enforcement of the Foreign
          Narcotics Kingpin Designation Act. In FY 2013, DoD proposed 12 targets for inclusion in the
          President’s Tier I Drug Kingpin List. Two of DoD’s nominations made the President’s final list
          of six targets. These designations enable the U.S. to disrupt foreign drug traffickers, their related
          businesses, and their operatives by denying access to the U.S. financial system and prohibiting
          all trade and transactions between the traffickers and U.S. companies and individuals.

          STRATEGIC GOAL 1

          Measure 1: Counter Narcotics Police of Afghanistan (CNPA) Capability Milestone Rating.
                        (T = FY13/14 targets)

           FY	2008	      FY	2009	       FY	2010	     FY 2011       FY 2012        FY	2013	T       FY	2013	      FY	2014	T
               *            *               *         CM‐3          CM‐2B          CM‐2A           CM‐2B            *
          *No data/Not Set 

                  The primary performance method used by the Counter Narcotics Police of Afghanistan
          (CNPA) operational effectiveness program is the Capability Milestones (CM) Rating System.
          The CM Rating System uses a numeric rating (1 through 4) to determine level of capability
          based upon a combination of qualitative and quantitative output and outcome indicators
          reflecting progress towards end-state capabilities related to strategic leadership, operational
          planning, personnel and training, finance and logistics management, and information
          management.

          CM‐1A	 Ability to accomplish mission or task autonomously with no Coalition involvement 
                 Ability to accomplish mission or task with Coalition oversight only, meets all requirements for CM‐2A, 
          CM‐1B	
                 and filled to 90% of total authorizations 
                 Ability to accomplish mission with minimal Coalition assistance limited to critical ministerial functions 
          CM‐2A	
                 and meet all requirements for CM‐2B 
                 Ability to accomplish mission with some Coalition assistance for all tasks after all key personnel have 
          CM‐2B	 required training, meet all requirements for CM‐3, 75% of total authorizations filled, 90% of leadership 
                 positions filled, and 90% of required equipment is on hand and operational 
                 Ability to accomplish mission with significant coalition assistance, meets all requirements for CM‐4, at 
           CM‐3	 least 50% of total authorizations filled, at least 75% of leadership positions filled, and sufficient 
                 equipment for assigned personnel is on hand and operational 
                 Cannot accomplish mission or task, basic requirements exist, 25% of total authorizations filled, personnel 
           CM‐4	
                 training is ongoing, and equipment is still being acquired 

                  The objective of the CNPA program is to create and transition to the Government of the
          Islamic Republic of Afghanistan accountable, effective, and self-reliant Afghan counternarcotics
          security forces capable of containing the illicit drugs trade, including by strengthening U.S. and
          foreign law enforcement support capabilities (through the provision of training, equipment,
          infrastructure, intelligence support, and command, control, communications, computers, and
          intelligence systems) to sustain counternarcotics efforts as U.S. military forces draw down.
          Organizational challenges in the CNPA program delayed achievement of CM-2A performance in


          Page 10                      FY 2013 DoD Counternarcotics Performance Summary Report




14 │ DODIG-2014-036
                                                                                                             Attachment




FY 2013. These challenges have been addressed in the Afghanistan Ministerial Development
Plan, and CNPA is on course to achieve CM-2A performance by the end of calendar year 2013.

        DoD counterdrug activities have had a significant impact on Operation Enduring
Freedom in 2013. Corruption tied to the illicit drug industry in Afghanistan has been identified
by the International Security Assistance Force (ISAF) as one of the largest strategic threats to the
Afghan Government's legitimacy following transition. The United States Central Command
(USCENTCOM) counterdrug program has partnered with U.S. government law enforcement to
enhance security and stability in Afghanistan by funding capacity building initiatives in the
region. These initiatives serve to foster improvements in Afghanistan's counternarcotics
capability and improve the overall security situation. USCENTCOM, in partnership with the
U.S. Department of Justice (DoJ), has been instrumental in building the capacity of the CNPA.

       The CNPA Development Unit (CDU), an organization of law enforcement professionals
from the DoJ's International Criminal Investigative Training Program (ICITAP), is embedded in
ISAF's Police Training Directorate and is responsible for institutional development of the CNPA.
The CDU continues to guide the CNPA in executing the CNPA Ministerial Development
Program. As a result, CNPA is on-track to transition into a reliable and independent counterdrug
law enforcement partner in 2014.
 
        DoD counterdrug funding was also critical in developing Afghan rotary wing airlift to
support the CNPA's counterdrug, counter-terror, and counter-insurgency activities. One
significant milestone was met in October 2012 when contractors began transitioning out of
operational missions. The last U.S. contractor-only CN operation was conducted 5-10 October
2012. Since then, missions and support operations have been conducted primarily by Special
Mission Wing (SMW) Afghan crews with minimal augmentation by the U.S. Army Embedded
Training Team (ETT). In November 2012, the SMW validated the Green Platoon training
concept by segregating pilots and crew chiefs into training platoons for intensive skills
development. Three Green Platoon classes occurred from January - November 2013 with the
final class participating in actual counterdrug missions.

STRATEGIC GOAL 2

Measure 1: Percentage of illicit trafficking cases/events detected by Joint Interagency Task
           Force South (JIATF-S) resources. (T = FY13/14 targets)

 FY	2008	     FY	2009	     FY	2010	      FY 2011       FY 2012        FY	2013	T      FY	2013	   FY	2014	T
     *           *            32            28            37             100            43         100
*No data 

Measure 2: Percentage of illicit trafficking cases/events monitored by JIATF-S resources.
            (T = FY13/14 targets)

 FY	2008	     FY	2009	     FY	2010	      FY 2011       FY 2012        FY	2013	T      FY	2013	   FY	2014	T
     *           *            90            92            90             100            95         100
*No data 




                           FY 2013 DoD Counternarcotics Performance Summary Report                 Page 11




                                                                                                      DODIG-2014-036 │ 15
Attachment




             Measure 3: Percentage of illicit trafficking cases/events successfully handed-off to
                        interdiction resources. (T = FY13/14 targets)

              FY	2008	     FY	2009	      FY	2010	      FY 2011       FY 2012        FY	2013	T      FY	2013	   FY	2014	T
                  *           *             68            89            80             100            94         100
             *No data 

                     Based on internal review, the measure used to track progress towards strategic goal 2 was
             changed to reflect Joint Interagency Task Force South (JIATF-S) contributions to the objectives
             of the National Drug Control Strategy goal by helping to disrupt movement of cocaine through
             the Western Hemisphere transit zone and into the United States. This is done through the
             provision of DoD maritime and aerial detection and monitoring assets. These assets contribute
             to U.S. Government and partner nation interdiction efforts by reducing the quantity of illicit
             drugs entering the U.S. from Mexico and Central and South America.

                       Through cued intelligence and other sources, JIATF-S detects, monitors, and hands-off
             illicit trafficking cases/events to U.S. and international law enforcement agencies for disruption
             and interdiction. Beginning in FY 2010, JIATF-S employs a drug interdiction framework and
             corresponding indicators to assess its operational efficacy and targeting of detection and
             monitoring resources. JIATF-S assumes 100% indicator targets based on fully resourced ship
             and air asset requirements. However, DoD’s past and current asset allocation and prioritization
             underachieves this target.

                      DoD’s detection and monitoring activities are informed by and contribute to intelligence
             awareness in order to counter illicit drug and drug precursor trafficking and related transnational
             organized criminal threats to U.S. national security interests in the Western Hemisphere. These
             activities facilitate the interdiction of highly mobile, asymmetric, non-communicative targets
             involved in illicit drugs and other transnational organized crime within the Western Hemisphere
             transit zone.

             STRATEGIC GOAL 3

             Measure 1: Total value in U.S. dollars interdicted through DoD counternarcotics funded
                        National Guard Programs (Western Hemisphere). (T = FY13/14 targets)

             FY	2008	 FY	2009	        FY	2010	    FY	2011      FY 2012     FY 2013	T       FY	2013	A	    FY	2014	T
                *           *            *           *          $359M          *            $227.5M          * 
             *No data/Not Set 

                    Based on internal review, the measure used to track progress towards strategic goal 3 was
             changed to reflect National Guard Counterdrug and CTF programs. In FY 2013, DoD
             counternarcotics funded National Guard programs supported U.S. law enforcement agencies in
             over 566 counternarcotics-related money laundering investigations. Investigations included
             outlaw motorcycle gangs on the northern border, transnational criminal organizations on the
             southwest border, and financial institutions and front companies with links to narco-terrorism,
             precursor chemical diversion, drug trafficking, and money laundering. These investigations


             Page 12                     FY 2013 DoD Counternarcotics Performance Summary Report




16 │ DODIG-2014-036
                                                                                                  Attachment




resulted in identification of over 1,373 suspects and 639 money laundering methods previously
unknown to federal law enforcement agencies and in the dismantling of seven and disruption of
45 drug trafficking organizations.




                        FY 2013 DoD Counternarcotics Performance Summary Report         Page 13




                                                                                          DODIG-2014-036 │ 17
Attachment




                         THIS	PAGE	INTENTIONALLY	LEFT	BLANK	




               Page 14     FY 2013 DoD Counternarcotics Performance Summary Report




18 │ DODIG-2014-036
                                                                  Attachment




THIS	PAGE	INTENTIONALLY	LEFT	BLANK	




  FY 2013 DoD Counternarcotics Performance Summary Report   Page 15




                                                             DODIG-2014-036 │ 19
Attachment




20 │ DODIG-2014-036
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
